<html>
<title> - FIREARMS AND MUNITIONS AT RISK: EXAMINING INADEQUATE SAFEGUARDS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


    FIREARMS AND MUNITIONS AT RISK: EXAMINING INADEQUATE SAFEGUARDS

=======================================================================

                                 HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 6, 2016

                               __________

                           Serial No. 114-74

                               __________

Printed for the use of the Committee on Oversight and Government Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform


                               ___________

                      U.S. GOVERNMENT PUBLISHING OFFICE
22-194 PDF                     WASHINGTON : 2016           

_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7c1b0c133c1f090f081419100c521f131152">[email&#160;protected]</a>  
              
              
              
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
              Patrick Hartobey, Professional Staff Member
                           Willie Marx, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 6, 2016.....................................     1

                               WITNESSES

The Hon. Michael E. Horowitz, Inspector General, U.S. Department 
  of Justice
    Oral Statement...............................................     5
    Written Statement............................................     7
Mr. Thomas R. Kane, Ph.D., Acting Director, Federal Bureau of 
  Prisons
    Oral Statement...............................................    13
    Written Statement............................................    15
Mr. Steven A. Ellis, Deputy Director of Operations, Bureau of 
  Land Management
    Oral Statement...............................................    20
    Written Statement............................................    22
Mr. Jeffery Orner, Chief Readiness Support Officer, U.S. 
  Department of Homeland Security
    Oral Statement...............................................    25
    Written Statement............................................    27

                         ADDITIONAL INFORMATION

        1. Report from the Department of Treasury, Bureau of Alcohol, 
        Tobacco & Firearms, titled, ``Following the Gun: Enforcing 
        Federal Laws Against Firearms Traffickers'' entered by Rep. 
        Carolyn B. Maloney of New York. The Report can be found online 
        here; http://everytown.org/wp-content/uploads/2014/08/
        Following-the-Gun Enforcing-Federal-Laws-Against-Firearms-
        Traffickers.pdf

        2. Report conducted by the Departments of Justice, Homeland 
        Security, and Defense, titled, ``Report to the President 
        Outlining a Strategy to Expedite Deployment of Gun Safety 
        Technology.'' Entered by Ranking Member Elijah E. Cummings of 
        Maryland. The report can be found online here: https://
        www.whitehouse.gov/sites/default/files/docs/final report-smart 
        gun report.pdf

 
    FIREARMS AND MUNITIONS AT RISK: EXAMINING INADEQUATE SAFEGUARDS

                              ----------                              


                        Wednesday, July 6, 2016

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 10:04 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Jordan, Walberg, 
Amash, Gosar, Gowdy, Meadows, Mulvaney, Walker, Blum, Hice, 
Russell, Carter, Hurd, Palmer, Cummings, Maloney, Lynch, 
Connolly, Cartwright, Kelly, Lieu, Watson Coleman, Plaskett, 
and Welch.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order. Without objection, the 
chair is authorized to declare a recess at any time.
    I want to thank you all for being here. This is an 
important topic as we discuss firearms and munitions and 
examining the safeguards that may or may not be in place there. 
And that is of utmost concern, I think, to the public and 
certainly to the Congress. There have been reports and 
investigations, and I think this is a good opportunity to have 
a candid discussion with members asking questions.
    Obviously, keeping a list on what government agencies own 
should be a routine practice. It is always fascinating to me 
that we, for instance, don't have an inventory of all the 
assets that the government owns, can't tell you how much real 
property they own, can't tell you exactly how many buildings 
that we own. You can't go online and say show me a list of 
these things.
    There are some things that maybe shouldn't be out there in 
the public; I understand that. We don't want to let the 
adversary know the details of specifics regarding ammunition 
and munitions, but when you have a list and you are tracking it 
adequately, you know it is inventory. And you know when 
something is no longer there, if it goes missing, you know if 
you have a problem with theft. And when we are talking about 
guns and ammunition and even more powerful things than your 
regular .22, then you have got an issue that we need to 
discuss.
    The Office of Personnel Management does not have a list of 
its servers, its databases or network devices, and then it lost 
information on 21 million Americans. GSA was trying to maintain 
an inventory of surplus firearms around the country, which was 
on an Excel spreadsheet, and it lost 485 firearms, including 
grenade launchers, Uzis, and assault rifles.
    Government-wide, Federal agencies purchased roughly $1.5 
billion worth of firearms, munitions, and equipment between 
2006 and 2014. We need to make sure this is safeguarded and 
there is adequate auditing in place.
    This past March, the Department of Justice inspector 
general released a report detailing the lack of proper 
inventory and control procedures at the Bureau of Prisons. The 
inspector general started its audit of armory practices after a 
bureau employee pled guilty to stealing flashbang stun 
munitions. When the IG reviewed seven of the 120 armories at 
BOP facilities, it found insufficient firearms and munitions 
controls and practices, which created increased risk of loss 
and theft. The audit discovered the records system that was 
used to track munitions did not record changes to the 
inventory, and forms used to check out munitions and firearms 
were incorrect and incomplete. And again, this was only at 
seven of these facilities. Again, without adequate tracking it 
is extremely difficult to maintain an inventory.
    When onsite inventory counts were conducted at armories, 
auditors found actually inventory did not match what was 
reported. There are numerous instances where the inventory 
reports stated more or less than the actual amount of munitions 
present at the actual armory. The result of these discrepancies 
is that the only person who knows the correct count is the 
officer in charge of the armory, and we even question whether 
that is true.
    The Bureau of Prisons is not alone, though, in its 
inventory trouble. And the release of Department of Justice 
inspector general report came only a short time after equally 
troubling finding at the Department of Homeland Security's at 
the safeguarding of firearms. In February 2016 multiple news 
agencies reported that during a 31-month period between 2012 
and 2015, Homeland Security lost 165 firearms, along with more 
than thousands of badges and credentials.
    When the committee reviewed the documentations for losses 
between 2012 and 2015, it was discovered the number of lost 
firearms actually exceeded 220, including at least one firearm 
known to have been later used in a violent crime. Loss of a 
single firearm is cause for concern. The loss of what amounts 
to roughly five a month is totally unacceptable.
    This is especially concerning for a department charged with 
keeping our homeland secure, but it is not the first time 
Homeland Security has had issues with firearms inventory 
practices. In 2010 the DHS inspector general found that between 
fiscal years 2006 at 2008 the agency lost roughly 289 firearms. 
That means that in just 7 years Homeland Security has lost more 
than 500 firearms.
    High-profile crimes connected with firearms lost by their 
agencies such as the Bureau of Land Management indicate that 
weak inventory accounting and controls are potentially 
widespread among Federal agencies.
    It is abundantly clear that when it comes to Federal agency 
firearms, ammunitions, nobody is minding the store. It is a 
problem that must be fixed. That is why we are here today. And 
we appreciate the testimony and the interaction we will have.
    Chairman Chaffetz. With that, I will now recognize the 
ranking member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman, and thank 
you for calling this hearing.
    Last month, a deranged terrorist walked into a nightclub in 
Orlando and shot down 49 innocent people in one of the most 
devastating gun massacres in our nation's history. To say that 
our prayers go out to the families, while certainly true, is 
simply no longer enough. We do not have the right to remain 
silent. We cannot ignore them. We must act, and we must act 
now.
    Every year about 12,000 Americans are killed with guns. I 
haven't even included the suicides. My hometown of Baltimore 
more than 300 were killed last year alone in shooting-related 
homicides. We as elected officials here in the Congress should 
be able to agree that suspected terrorists, suspected 
terrorists should not have guns.
    The American people already agree, law-abiding gun owners 
agree, people who support the Second Amendment agree. But this 
proposal is opposed by the NRA, the gun manufacturers, and 
Republican leaders who will not allow a vote to close this 
terrorist loophole. Instead, Speaker Ryan announced plans this 
week to call up a phony bill endorsed by the NRA that continues 
to allow suspected terrorists, suspected terrorists, suspected 
terrorists to buy guns unless there is an arrest warrant 
against them. And now even that proposal has been put on hold.
    Let me ask you this. If we ban a suspected terrorist from 
boarding a plane, why in the world would we let him walk across 
the street into a gun store and stock up on military-style 
assault weapons within 72 hours? It makes absolutely no sense. 
But that is what this NRA bill would do.
    We here in Congress should also be able to agree that no 
convicted felon should have guns. If people are convicted of 
violent crimes, they should not be allowed to buy semiautomatic 
firearms, .50 caliber sniper rifles, or other types of deadly 
weapons. Having a background check for any gun changes hands is 
a commonsense proposal supported by a wide majority of 
Americans, including law-abiding gun owners and strong 
supporters of the Second Amendment. But again, the NRA, gun 
manufacturers, and their Republican supporters in Congress 
prevented this from happening.
    We here in Congress should be able to support a Federal law 
against illegal gun trafficking by drug cartels or other 
criminal organizations. We have heard firsthand from law 
enforcement agents in testifying at this very witness table 
that the current statute is just a slap on the wrist. And they 
begged us to address it. They called it a toothless paperwork 
violation.
    That is why Congresswoman Maloney and I introduced the Gun 
Trafficking Prevention Act. This bipartisan bill, cosponsored 
by Republicans, including Patrick Meehan, Michael Fitzpatrick, 
Scott Rigell, and Peter King, again, more than 100 cosponsors 
and supported by law enforcement organizations across the 
country. But that was more than 3 years ago, more than 3 years 
ago. Since that time many people have died, shot down with a 
gun.
    Since then, there has not been one hearing, one markup, or 
one vote on our bipartisan proposal. Our bill, like so many 
other commonsense proposals, has been gathering dust because 
Republican leaders refuse to allow a vote.
    Of course, Federal agencies must safeguard their firearms, 
which is the subject of today's hearing. Everyone on this panel 
agrees with that. Last year, a young woman Kate Steinle was 
killed by a convicted felon when a duty pistol that belonged to 
a ranger from the Bureau of Land Management--she was killed 
with it. The gun was stolen from his vehicle week earlier.
    Of course, it is appropriate to examine crimes committed 
with Federal firearms that are lost or stolen and to identify 
improvements in the way Federal agencies keep their 
inventories. But we can no longer ignore the far more massive 
carnage caused by non-Federal guns every single day in this 
country.
    There have been some very high-profile shootings, and these 
shootings cause people to demand action. But there are also 
many, many shootings every single day that do not get the 
attention. Directly across the street from me in Baltimore 30 
feet from my house lives a young man named Rassaan Hammond. He 
is a 36-year-old who has a master's degree and he owns a sound 
studio in east Baltimore. His mother is the graduate dean 
emeritus of the Maryland Institute of Art.
    Just last week, last week, Mr. Hammond was driving away 
from his studio in Baltimore when his car was shot at six 
times. One of the bullets entered his heart. And my neighbor of 
20 years had the good fortune that his heart miraculously 
pumped the bullet into his aorta. Mr. Hammond was also shot in 
the arm. The doctors say that he will survive, he will be okay, 
and it is one in a 10 million chance that somebody could be 
shot in the heart and survive. Miraculously, the bullets were 
recoverable and he survived and is now recovering.
    Police have not identified a suspect in this shooting, but 
this one example highlights the scope of this epidemic. That is 
that people just like young Mr. Hammond are gunned down every 
single day in our country, and many are not as lucky as he was.
    As I close, the bottom line is that we do not want any 
suspected terrorists to get a gun, we do not want any felon to 
get a gun, and we do not want any trafficking organization to 
get guns. But there has been no credible action by Republican 
leaders to address these issues. The American people want us to 
move beyond false choice of no guns at all or the Wild West of 
firearms on demand. We can--yes, we can and we must make 
commonsense improvements on a bipartisan basis, and it is our 
solemn duty to act now to prevent the further loss of life of 
our own citizens.
    And with that, Mr. Chairman, I thank you for the courtesy 
and I yield back.
    Chairman Chaffetz. I thank the gentleman. I will hold the 
record open for 5 legislative days for any members who would 
like to submit a written statement.
    I will now recognize our panel of witnesses. We are pleased 
to welcome the Honorable Michael Horowitz, inspector general of 
the United States Department of Justice; Mr. Thomas Kane, 
Ph.D., acting director of the Federal Bureau of Prisons; Mr. 
Stephen Ellis, deputy director of the Bureau of Land Management 
in the United States Department of the Interior; and Mr. 
Jeffery Orner, who is the chief readiness support officer at 
the United States Department of Homeland Security. We welcome 
and thank you all for being here.
    Pursuant to committee rules, all witnesses are to be sworn 
before they testify. If you will please rise and raise your 
right hand.
    [Witnesses sworn.]
    Chairman Chaffetz. Thank you. You may be seated. Let the 
record reflect that all witnesses answered in the affirmative.
    I think all of you had testified before Congress. If you 
will please limit your verbal comments to 5 minutes. We will 
give you some latitude obviously, but your entire written 
statement will be entered into the record.
    Mr. Horowitz, you are now recognized for 5 minutes.

                       WITNESS STATEMENTS

                STATEMENT OF MICHAEL E. HOROWITZ

    Mr. Horowitz. Thank you, Mr. Chairman, Ranking Member 
Cummings, members of the committee. Thank you for inviting me 
to testify today.
    The safety and security of Federal prisons remains one of 
the Justice Department's top management challenges, and the 
proper authorization, use, and tracking of BOP armory munitions 
and equipment are critical factors in ensuring the safety and 
security of our Federal prisons.
    The OIG recently audited the BOP's munitions controls 
following an OIG investigation that resulted in a BOP special 
operations response team member pleading guilty to stealing 
stun munitions from a BOP facility. Our audit identified 
several weaknesses in BOP's policies and practices for 
safeguarding armory munitions and equipment, although we did 
find that BOP had not lost any firearms in those munitions 
facilities.
    Specifically, we found weaknesses in BOP's controls over 
tracking, issuing, and reporting on both active and expired 
armory munitions and equipment, as well as institutions' 
compliance with existing policies. Significantly, we found that 
a BOP security officer can move inventory in and out of the 
armory and change information in the BOP's inventory data 
system without leaving any record that a change in inventory 
occurred.
    We also found that information in the data system was 
neither complete nor accurate. Our audit also identified 
inventory errors that BOP institutions should have identified 
themselves during their quarterly physical inventories but did 
not. Additionally, the authorization and use of armory 
munitions and equipment was not always adequately documented.
    Finally, we found that the BOP's controls are not adequate 
to ensure that only authorized armory munitions and equipment 
are stored in those armories. We identified unauthorized 
chemical agents and ammunition among BOP institutions' armory 
inventories. And in many instances, we were not able to 
determine if the munitions were authorized because BOP's lists 
of authorized munitions were outdated and otherwise inadequate. 
Our report made 14 recommendations to the BOP, and the BOP 
agreed with all of them.
    The challenge of prison safety was further demonstrated in 
a report we issued last month assessing BOP's efforts to 
prevent contraband from being introduced into prisons. We found 
that recoveries of weapons, narcotics, and tobacco in BOP 
institutions had increased significantly. We also determined 
that BOP had not effectively implemented its staff search 
policy to deter staff introduction of contraband.
    In a 2003 OIG report we recommended that BOP revise its 
policies to require searches of staff and their property when 
they enter prisons. More than 10 years--after more than 10 
years of negotiation with its union, BOP implemented a new 
staff search policy in 2013. However, last year, the Federal 
Labor Relations Authority ordered BOP to stop using that 2013 
staff search policy following a union challenge to it. As a 
result, more than 13 years after our 2003 report, BOP still has 
no comprehensive and effective staff search policy. We made 11 
recommendations in our report to BOP to improve its ability to 
interdict prison contraband, and BOP again agreed with all of 
those recommendations.
    Weapons in BOP prisons represent not only a life-
threatening danger to BOP staff and inmates but also to those 
in law enforcement such as FBI, DEA, and OIG agents who 
investigate serious criminal conduct in Federal prisons. My 
office knows those dangers all too well. In June 2006 OIG and 
FBI agents were at a BOP prison to arrest six correctional 
officers on charges of smuggling contraband and sexual abuse of 
inmates when one of the corrupt correctional officers drew a 
firearm that should not have been in the prison and shot both a 
BOP staff member and OIG special agent Buddy Sentner. Agent 
Sentner returned fire, killing the corrupt correctional officer 
and likely saving the lives of fellow agents and innocent 
bystanders. The BOP staff member survived his wounds. Agent 
Sentner did not.
    Such tragic events demonstrate the critical need for the 
BOP to have an effective staff search policy to keep dangerous 
contraband and weapons out of prison and to make sure it has 
sufficient measures to control and account for all of the 
munitions and other weapons that are legally kept in its 
armories.
    This concludes my prepared statement. I'd be pleased to 
answer any questions the committee may have.
    [Prepared statement of Mr. Horowitz follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Chaffetz. Thank you, Mr. Horowitz.
    Mr. Kane, you are now recognized for 5 minutes.

                  STATEMENT OF THOMAS R. KANE

    Mr. Kane. Good morning, Chairman Chaffetz, Ranking Member 
Cummings, and members of the committee. I appear before you 
today to discuss the mission and operation of the Federal 
Bureau of Prisons and specifically our armory policies. We 
appreciate the committee's interest in this issue.
    Our detailed response to your inquiry regarding lost and 
stolen firearms was provided on June 24, 2016, and our records 
indicate no lost, stolen, or missing weapons.
    We also appreciate the considerable work of the OIG on 
their audit of Bureau armory ammunitions and equipment. We 
concurred with all 14 recommendations in the report and 
provided the first status update on June 21, 2016. The overall 
status of the report is now resolved with three closed 
recommendations, and we look forward to continuing to work with 
the OIG as we improve our systems for documenting and tracking 
munitions equipment in our armories.
    I am honored to speak on behalf of the nearly 39,000 Bureau 
staff, law enforcement professionals who are correctional 
workers first and support the agency's mission and core values 
of respect, integrity, and correctional excellence.
    Every day, when staff go to work at Bureau facilities 
around the country, they put the safety of the American people 
above their own. These dedicated public servants are committed 
to the highest standards of professionalism. Their courage, 
bravery, and sacrifice are essential to keeping our communities 
safe and our institutions secure.
    As our nation's largest correctional agency, the Bureau 
houses approximately 195,500 inmates in our Federal prisons 
nationwide. Our mission, which dates back to the Bureau's 
establishment in 1930, is twofold. First, to protect society by 
confining offenders in prisons and community-based facilities 
that are safe, humane, cost-efficient, and appropriately 
secure; and second, to ensure that offenders are actively 
participating in programs that will assist them in becoming 
law-abiding citizens.
    We have had great success with respect to both parts of our 
mission. Our facilities are safe and secure, and the latest 
research indicates 34 percent of released Federal offenders are 
rearrested or have their supervision revoked within 3 years as 
compared to almost 68 percent of offenders released from State 
prisons. Those numbers are a testament to the quality of 
evidence-based programs our staff provide in an environment 
that promotes respect and self-improvement.
    In support of our public safety mission, the Bureau 
maintains armories for emergency equipment that is made 
available as required for certain correctional posts, for 
particular emergency situations, and for training. In 2011, a 
Bureau staff member pled guilty to one count of transfer of a 
stolen flashbang device, which was taken during a Special 
Operations Response Team training exercise at Florence, 
Colorado. The staff member was terminated from the Bureau and 
was sentenced to 6 months home confinement, 3 years' probation, 
and restitution for the value of the stolen goods.
    The Bureau reported this incident to the Department of 
Justice's Office of Inspector General and cooperated fully in 
the investigation. We also took immediate steps to modify the 
armory tracking form for better accountability of the munitions 
taken out of and returned to the armory. Since that time, we 
have also made additional changes to the form, as recommended 
by the OIG, to further improve the accountability.
    As I stated previously, the Bureau agrees with all 14 of 
the OIG report recommendations. The OIG has closed three 
recommendations, and the Bureau has recently completed two 
additional recommendations that will be reported to the OIG in 
our next status update. We are developing a national database 
that will strengthen and enhance our systems of control to 
support the remaining recommendations. We are confident that in 
addressing the issues identified in the report we will be 
enhancing the safety of our staff, inmates, and the public.
    Chairman Chaffetz, Ranking Member Cummings, members of the 
committee, this concludes my formal statement. Thank you.
    [Prepared statement of Mr. Kane follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you, Mr. Kane.
    Mr. Ellis, you are now recognized for 5 minutes.

                  STATEMENT OF STEVEN A. ELLIS

    Mr. Ellis. Thank you. Good morning, Mr. Chairman, Mr. 
Ranking Member, and members of the committee. I am Steve Ellis. 
I'm the Bureau of Land Management's deputy director for 
operations. I appreciate the opportunity to discuss BLM's 
firearms management practices here this morning.
    The dedicated men and women who make up the BLM law 
enforcement program play an integral role in ensuring public 
safety and fulfilling our agency's multiple use and sustained-
yield mission. Every day our officers put themselves in harm's 
way to investigate vandalism and looting, support emergency 
response, and provide a safe environment for employees and the 
visitors to our nation's public lands.
    Nationally, the BLM manages a wide variety of resources 
spread over 245 million acres of public land and 700 million 
acres of subsurface mineral estate. There are many Federal laws 
and regulations that guide BLM in managing these public lands. 
The BLM has been given specific resource protection of law 
enforcement responsibility to further that mission.
    The BLM manages more than 10 percent of the Nation's 
surface area and yet has one of the smallest law enforcement 
organizations among the Department of Interior's bureaus. The 
BLM is roughly one law enforcement officer for every one 
million acres of public land that we manage.
    The public lands managed by BLM are predominantly located 
in the Western United States, including Alaska, and consist of 
a very diverse landscape and resources. As a result, the 
specific duties of each BLM law enforcement officer can vary 
considerably. In all areas, BLM law enforcement officers work 
in cooperation with local sheriffs' offices, State agencies, 
and other Federal law enforcement agencies.
    BLM has approximately 185 law enforcement rangers and 75 
special agents on staff who enforce a wide range of laws and 
regulations in preventing, detection, and investigation of 
crimes affecting public lands resources. BLM provides each law 
enforcement officer with the necessary tools to protect 
themselves and others as they carry out their official duties.
    The BLM is vigilant about its responsibility to control, 
secure, and safeguard firearms that its law enforcement 
officers are issued to carry out their duties and their 
responsibilities. The standard firearms issue for each officer 
is a semiautomatic pistol for primary duty carry, semiautomatic 
pistol as a backup weapon, a shotgun, and a semiautomatic 
rifle.
    The Department of Interior outlines policies for firearms 
inventory, accounting, control, disposal, and destruction, as 
detailed in the Department's letter to the committee on this 
issue that was sent last month--transmitted last month. Those 
procedures are included in the Department manual and Federal 
regulations and GSA Federal property management regulations. 
Among other requirements, departmental policy mandates that the 
bureau perform a fiscal firearm inventory of issued firearms 
twice year.
    On rare occasions, BLM's law enforcement officers may seize 
or confiscate firearms as part of criminal investigations or 
when an owner voluntarily surrenders them. Federal regulations, 
GSA guidelines, and Department of interior property management 
directives are also followed when BLM periodically disposes of 
or destroys seized or confiscated firearms and other firearms 
deemed unserviceable, excess, voluntarily relinquished, or 
abandoned and not suitable for government use.
    In the event that a firearm is lost or stolen, BLM complies 
with departmental policies that mandate notification of the 
Department within 24 hours for all lost or stolen firearms. 
Documentation and investigation of each incident occurs. It's 
entered in the lost or stolen firearms National Crime 
Information Center database and entered each incident in the 
Department's internal affairs database.
    Over the last 10 years, the BLM has reported one firearm 
lost and seven as stolen. Six of these were recovered. There 
was only one instance during that period in which a lost or 
stolen BLM firearm has been implicated in subsequent criminal 
activity. On June 27, 2015, a BLM officer's handgun was stolen 
from his personal vehicle in San Francisco, California. The 
theft was immediately reported in accordance with BLM's 
policies and procedures. The gun was confirmed to have been 
used in a shooting that occurred in San Francisco on July 1, 
2015.
    Thank you for the opportunity to provide testimony today, 
and I'd be glad to answer any questions you may have.
    [Prepared statement of Mr. Ellis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Mr. Ellis, thank you.
    Mr. Orner, you are now recognized for 5 minutes.

                   STATEMENT OF JEFFERY ORNER

    Mr. Orner. Good morning, Chairman Chaffetz, Ranking Member 
Cummings, and members of the committee. Thank you for the 
opportunity to appear before you today.
    I am Jeffery Orner, DHS's chief readiness support officer, 
a career civil servant with 35 years of experience in the 
Federal Government, including executive leadership positions at 
Department of the Navy, the Coast Guard, and DHS headquarters. 
My office provides policy and oversight of DHS's real estate, 
mobile assets such as vehicles and aircraft, environmental 
compliance, logistics, and personal property, including 
firearms. Our goal is providing our dedicated workforce 
nationwide with the operational tools and support they need to 
keep our nation safe and to be strictly responsible stewards of 
government resources as we carry out those missions. Today, I 
will discuss how the Department ensures accountability for 
firearms and ammunition.
    DHS is the Nation's largest law enforcement agency. 
Firearms are critical tools for the men and women who perform 
the Department's various law enforcement missions on the 
borders, in our cities, and in the maritime domain. Any lost 
firearm is a very serious matter, and my office has placed 
strict controls on reporting requirements to ensure 100 percent 
accountability at all times.
    The foundations of our program are personal accountability, 
rigorous internal controls, and comprehensive data that we use 
to continually improve our internal controls over the DHS 
firearms program. I am pleased to report that DHS has made 
significant progress in reducing the number of firearms lost 
each year. Since the inspector general reported on this issue 
in 2010, DHS's weapons portfolio has increased by 9 percent. 
However, at the same time we have cut our annual firearms 
losses by 28 percent. DHS annual firearms losses now stand at 
69 annually out of a total inventory of more than 204,000 
weapons. This represents a loss rate of approximately 3/100 of 
1 percent of our inventory.
    In performing our headquarters role we have significantly 
improved the management and oversight of firearms, as well as 
all accountable personal property and sensitive assets through 
implementing the first DHS-wide firearms policy in April 2010, 
which we updated again in 2013. We strengthened the DHS 
management directive covering personal property asset 
management in 2012, and we updated the DHS personal property 
asset management manual in 2013.
    Through these governing documents, we have established 
strict accountability procedures that clearly guide how our 
operational components are to process lost, damaged, or stolen 
property, including firearms. For example, those procedures 
require immediate internal notifications, as well as external 
alerts to law enforcement authorities in the event of any lost 
or stolen firearms, law enforcement badges and credentials, or 
other mission-critical assets. Departmental policy also 
requires our components to establish internal policies to 
ensure proper accountability, tracking, loss reporting, and 
safeguarding of all firearms.
    In addition to improved policy and procedures, we also 
enhanced our data systems. Since 2012, department-wide 
reporting and tracking of lost, damaged, destroyed, and stolen 
government property has greatly improved with increased 
visibility of our data. For example, we moved from a system of 
manually combining multiple spreadsheets into one form to a 
real-time database that is updated directly by our operational 
components and is visible to my staff at headquarters. This 
enables DHS to monitor compliance with policy and procedures 
for firearms and other accountable assets through a monthly 
scorecard measure utilizing standards derived from the American 
Society for Testing and Materials.
    Although it's clear we've made progress in reducing the 
number of lost and stolen firearms, the loss of any firearm is 
unacceptable. At the same time, it is important to understand 
that unlike the military, which generally does not allow its 
members to take firearms off base and usually stores them in a 
secure armory, DHS law enforcement personnel are seldom without 
their weapon. They take them home with them, carry them in 
their vehicles, and employ them in a very austere, demanding 
environment because they are always on call to respond.
    One example of such a loss involves a U.S. Border Patrol 
officer stationed in Arizona near the southern U.S. border. The 
officer's home was burglarized and his service weapon, a 
pistol, which was secured in a CBP-issued lockbox, was stolen. 
In this case, as in other similar cases, it could be surmised 
that the officer and his residence were known in the community, 
thereby making his residence an optimal target for such a 
theft.
    Given the environment in which our law enforcement agents 
operate, it is very difficult to ensure all losses--to 
eliminate all losses. However, when the losses occur, our 
procedures are very clear. The officer's supervisor is notified 
within 2 hours, as is local law enforcement. This initiates a 
chain of events leading up to a formal report, a survey being 
completed, and a lost, damaged, or destroyed report, which is 
sent to my office where the information is loaded into our data 
system and incorporated into our scorecard measures of loss 
rates, submission timelines, and adjudication timelines. 
Follow-on investigations and any disciplinary actions are 
determined by each operational component by the operational 
chain of command.
    The Department takes very seriously its role as a steward 
of government resources, and we will continue to evaluate our 
current policies and procedures, and we will continue to 
identify areas for improvement and to act on those.
    Thank you for the opportunity to give my opening statement 
today. I look forward to answering your questions.
    [Prepared statement of Mr. Orner follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you. I now recognize myself for 5 
minutes.
    Mr. Horowitz, you have done some good, thorough work with 
the Federal Bureau of Prisons. They have, according to Mr. 
Kane, accepted all of those recommendations, but what about the 
implementation? Where are we at with the actual implementation?
    Mr. Horowitz. About 2 weeks ago we got an update report 
from BOP requesting as to four of the recommendations that we 
close them. We agreed that three could be closed. We disagreed 
on the fourth. And so at this point, 11 of the 14 remain open, 
and we would expect an update within 90 days from BOP on its 
progress on all 11 remaining items.
    Chairman Chaffetz. Is that behind schedule, ahead of 
schedule, what you anticipate?
    Mr. Horowitz. Generally speaking, it's consistent with the 
schedule we require of components that within 6 months we have 
made substantial progress towards closing recommendations.
    Chairman Chaffetz. And, Mr. Kane, you are committed to 
implementing all of those? It is one thing to accept the 
recommendations? It is another thing to actually implementing 
it.
    Mr. Horowitz. We are, Mr. Chairman, absolutely.
    Chairman Chaffetz. All right. Mr. Ellis, we have sent you a 
letter back in March trying to get an assessment of the 
ammunition, weapons that the BLM has in inventory. We have yet 
to get that. You have approximately 260 rangers and special 
agents, right?
    Mr. Ellis. That's correct.
    Chairman Chaffetz. And you are sitting next to Mr. Orner, 
who has hundreds of thousands of employees at the Department of 
Homeland Security. How many weapons, what types of weapons, and 
how much ammunition does the BLM have?
    Mr. Ellis. We have approximately 1,000--approximately 1,480 
firearms, and of those, 1,040 are issued to law enforcement 
officers. I mentioned in my testimony four weapons per officer, 
and we have about--with 185 rangers, 75 agents, four weapons 
each, that's 1,040 issued. There are at least 440 that are 
unissued. Of those, there are--approximately 290 are suitable 
for use, 150 unsuitable for use. Of those that are unsuitable, 
about 30 of those are training weapons, and at least about 120 
that are damaged or old.
    Chairman Chaffetz. When will this committee get a written 
record of your current inventory and the things that we had 
requested back in our March 9 letter? When will we get that 
answer?
    Mr. Ellis. Okay. It's my understanding, Mr. Chairman, that 
the Department provided a great deal of information in response 
to your questions, and it ----
    Chairman Chaffetz. You copied your personnel manual and 
sent it to us. That is not what I am looking for. The letter 
was very specific. I shouldn't have to send you a couple 
letters and have a hearing to finally start to hear some 
numbers. It can't be that difficult. And if it is that 
difficult, that highlights the problem that you can't just go 
somewhere and print out the current inventory and what the 
inventory has been for the last few years.
    Mr. Ellis. Well, if there's some additional information, 
Mr. Chairman, that we need to provide, I'll look into it.
    Chairman Chaffetz. Okay. Go back and look at the letter of 
March 9. I want to know when I will have not significant but I 
want 100 percent of the response to that letter. When is it 
reasonable to get a response to that letter?
    Mr. Ellis. I will get back to the committee on the 
information that you requested. As I indicated it ----
    Chairman Chaffetz. What does that mean? I mean, boy, that 
is generous of you, but should I issue a subpoena? Is that what 
you need? Do you need a subpoena?
    Mr. Ellis. No.
    Chairman Chaffetz. How about this. I will issue a subpoena 
by the end of the week unless you provide the information.
    Mr. Ellis. Okay. We will look into providing you the 
information.
    Chairman Chaffetz. So you do have information. You do have 
data. You just have been unwilling to share it with the 
committee. This is what is ridiculous. Why should I as the 
chairman and the other members of this committee, why should I 
have to sign a subpoena? Why is this a difficult exercise?
    Mr. Ellis. We--Mr. Chairman, as I said, we will--I will be 
happy to look into the information that you requested, that you 
indicated is not ----
    Chairman Chaffetz. When did you first know that I sent Mr. 
Kornze a letter? When did you first understand that?
    Mr. Ellis. I cannot tell you what the exact date is. I see 
a lot of ----
    Chairman Chaffetz. Your first clue should have been that we 
sent a letter, the second clue should be that there were other 
letters, and then there should be another clue that we had a 
hearing and then we rescheduled this hearing. So you have no 
excuses not to have this information at your fingertips and be 
able to provide it in writing to this committee.
    Mr. Ellis. Mr. Chairman, I know there was a response that 
was sent to you from the Department.
    Chairman Chaffetz. Part of it was a copy of your personnel 
manual. That was not what we asked for in the letter. Look, get 
it to us by the end of the week. If we don't have it by noon on 
Friday, I will issue a subpoena. Is that fair?
    Mr. Ellis. Fine.
    Chairman Chaffetz. Is what?
    Mr. Ellis. I--there's a letter that ----
    Chairman Chaffetz. Did you say fine? What did you say?
    Mr. Ellis. Yes, fine, fine. I understand. There's a letter 
that the Department sent to you on June 14, 2016, that does 
summarize the firearms of the various agencies in the 
Department.
    Chairman Chaffetz. We want the specifics of it. Just go 
back and read the letter, and then I want you to tell me and I 
want Mr. Kornze to tell me, who I find to be a very nice 
gentleman, but I need some competency here and actually 
providing that information to this committee in its totality, 
not significant, but its totality.
    My time is expired. I have other questions, but let's 
recognize Mr. Lynch of Massachusetts for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. And I share your 
frustration with the lack of information, so maybe we could 
work together on that subpoena.
    I do want to ask you, Mr. Orner, and maybe Mr. Horowitz you 
could jump in here. We are talking about the custody of 
firearms, and we have a bill on the Floor maybe later today and 
tomorrow that ties in with DHS in a direct way. The bill would 
prevent anyone on the terrorist watch list from obtaining a 
firearm, but the language of the bill requires that there be 
probable cause.
    Now, that is a pretty high standard, and I am concerned 
that in many cases we do not require probable cause. We require 
reasonable cause for somebody to be placed on the terrorist 
watch list. So we have a reasonable suspicion that this person 
might be engaged in terrorist-related activity.
    But the bill would require, in order to stop that person 
from purchasing a firearm, a higher standard. In other words, 
DHS or the Joint Terrorism Task Force or the FBI would have to 
have probable cause, a higher standard, in order to stop a 
person who is on the terrorist watch list or on the no-fly list 
from purchasing a firearm.
    Now, Mr. Orner or Mr. Horowitz, would you hazard an 
estimate of the efficacy of that provision of requiring 
probable cause to block somebody who is on the terrorist watch 
list but we don't necessarily have probable cause, we have 
reasonable cause, what the impact of that provision might have 
on the safety of the American public?
    Mr. Orner. Congressman, that is a critical issue. However, 
I am responsible for the Department's real and personal 
property and for ----
    Mr. Lynch. And you are an advisor, too, though, sir, right?
    Mr. Orner. I do not have professional involvement in the 
issue. The Department would be happy to provide you with a 
witness who can address that, but I can only discuss our 
property-related programs. I'm sorry.
    Mr. Lynch. You can't blame a guy for fishing, though, 
right?
    Mr. Orner. No, you can't.
    Mr. Lynch. Okay. Mr. Horowitz?
    Mr. Horowitz. Congressman, we obviously are not involved as 
DHS and the Department is in maintaining the terror watch list. 
We've done oversight work on how the FBI maintains the terror 
watch list ----
    Mr. Lynch. All right.
    Mr. Horowitz.--but on the question of what standard to ----
    Mr. Lynch. Yes.
    Mr. Horowitz.--to include, that's not something that, as a 
policy matter ----
    Mr. Lynch. All right, Mr. Horowitz. All right. You have 
suffered enough. Let me ask you something you might know about. 
In my experience, I spend a fair amount of time in the prisons 
in my district briefly, and in most cases there is fairly good 
coverage of cameras. There is, obviously because of prison 
violence, accusations against corrections officers, contraband, 
so most of the prisons that we visit have strong surveillance.
    And I am just wondering, you know, you have got this armory 
and you yourself in your testimony admitted that there is no 
record really of munitions going into an armory, leaving an 
armory, there is no written record, and I am just worried--I am 
concerned about--what is the status of our surveillance, our 
camera surveillance at those facilities if you could enlighten 
the committee.
    Mr. Horowitz. A very significant issue, Congressman, that 
we--because of the munitions issue, as you laid out, and what 
we just found in our contraband report from a couple of weeks 
ago that I referenced, one of the significant weaknesses in the 
BOP system is known areas in institutions where correctional 
officers and inmates who might want to engage in wrongdoing 
know they can go and not be on camera.
    That relates to firearms issues, that relates to drug 
dealing, that relates to other contraband trafficking, and it 
also relates to a big issue for our office, which are alleged 
civil rights violations. We are responsible in my office 
investigating allegations that Federal corrections officers 
abused inmates. And the FBI is responsible for investigating 
inmate-on-inmate abuse.
    And what we often find is whether we can make those cases 
and address those alleged civil rights violations turns largely 
on whether the action--the alleged events took place in an area 
where there was good camera coverage or not. And as I ----
    Mr. Lynch. Yes.
    Mr. Horowitz.--you might suspect, oftentimes inmates or 
correction officers who want to engage in that kind of conduct 
know where to go so they're not on camera. That's a very 
significant issue the BOP needs to address.
    Mr. Lynch. Okay. I see my time is expired unless, Mr. 
Orner, you want to add anything to that.
    Mr. Orner. No, Congressman.
    Mr. Lynch. Okay.
    Mr. Orner. I will stand by my answer.
    Mr. Lynch. All right. Thank, sir. Thank you. I yield back. 
Thank you for your courtesy, Mr. Chairman.
    Mr. Palmer. [Presiding] The gentleman's time is expired.
    The chair now recognizes the gentleman from Michigan, Mr. 
Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and I appreciate the 
opportunity to have this hearing because certainly with all the 
posturing that is going on about the Second Amendment and about 
use of firearms, we certainly can agree that the Second 
Amendment is part of the Constitution, but any violation of 
law, illegal activity, criminal activity relative to firearms 
has to be treated that way. And certainly we should not be 
adding to the potential of criminal activity by not having 
secure usage and storage of government-supplied firearms, and 
so I appreciate the panel being here.
    Mr. Orner, what are ICE's requirements for how officers 
secure firearms in their parked vehicles?
    Mr. Orner. As I noted in my opening testimony, we take this 
issue very seriously, and we have comprehensive data about the 
program. And we examine those data for trends. One of the 
things we noted several years ago was that the majority of our 
lost weapons are in fact stolen, and most of those are in fact 
stolen from vehicles. When we saw that trend, what we did was 
put in place at ICE and at our other components a requirement 
that any officer who is permitted to carry a weapon in a 
vehicle now has a gun locker in that vehicle. And that is in 
place at ICE and department-wide.
    Mr. Walberg. With all the subcomponents as well?
    Mr. Orner. Yes.
    Mr. Walberg. I assume that part of that is a locked vehicle 
along with the locker?
    Mr. Orner. The locked vehicle, the locker, and yes, any 
magazines or components of the--associated with the weapon are 
required to be in that gun locker.
    Mr. Walberg. And that has been a policy subcomponent-wide 
for how long?
    Mr. Orner. Just about 2 years.
    Mr. Walberg. About 2 years?
    Mr. Orner. I can't give you the exact date but it was 
roughly 2 years.
    Mr. Walberg. What administrative actions, if any, have been 
taken against the officer involved in the situation, the lost 
weapon that led to the Ramos killing back in 2013? Or 2015, 
excuse me.
    Mr. Orner. Disciplinary action is handled by the 
operational chain of command. I am not a part of the 
operational chain of command, so I don't have an involvement in 
individual disciplinary actions.
    Mr. Walberg. But I assume you know what took place. Could 
you inform us of that?
    Mr. Orner. I'm aware of the tragic incident, of course, but 
I do not know the--that individual action. I can get that--I 
can get back to you on that.
    Mr. Walberg. I would appreciate that if you could supply 
that to us, though I would hope that in evaluating your efforts 
to secure firearms, we would also have an understanding of how 
it is working and what has taken place as far as actions, 
administrative action against officers that, for one reason or 
another, lose their firearms.
    Did the incident lead to any changes in ICE protocols 
related to securing firearms, and have those changes been 
applied to other DHS components?
    Mr. Orner. That particular incident didn't lead to policy 
changes. It led to more scrutiny and a new look at the 
implementation of our current policy.
    Mr. Walberg. So I guess I go back again. What did we learn 
from that particular incident, and what changes have been made?
    Mr. Orner. Well, what we have learned is the criticality of 
securing officers' weapons in their homes and in their 
vehicles. Every ----
    Mr. Walberg. Well, that is a given. That I would assume is 
a given.
    Mr. Orner. That is a given. Every individual case of a lost 
or stolen weapon is investigated. The actions taken as a result 
of those losses depend on the nature of the incident. Somebody 
who does not follow procedures and leaves a weapon sitting on 
the seat of a car, that would mandate a disciplinary action. On 
the other hand, if you have, for example, a Coast Guard officer 
doing a boarding who is jostled and loses the weapon overboard, 
that's an entirely different type of situation although it's 
still a lost weapon. So the action taken is dependent on the 
nature of the incident and ----
    Mr. Walberg. I see my time is expired. Unless you are 
willing to give me a little bit of extra time, and I see you 
are not, so I understand that. Thank you.
    Mr. Palmer. The gentleman's time is expired.
    The chair now recognizes the ranking member, Mr. Cummings 
of Maryland.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Horowitz, based on your audit, you said that there are 
still 11 recommendations that have not been completed, is that 
right?
    Mr. Horowitz. That's correct.
    Mr. Cummings. And what would you say--give me the top two 
or three that you are most concerned about. But I know you are 
concerned about all of them; I know that.
    Mr. Horowitz. Yes. Well, there are a couple, primarily 
involves updating their inventory control systems because we 
found you couldn't track--you couldn't--when we compared what 
they showed in their monthly reports versus what they had in 
the institutions, oftentimes the numbers didn't match.
    Mr. Cummings. That is ----
    Mr. Horowitz. That such a basic issue ----
    Mr. Cummings. Yes.
    Mr. Horowitz.--that has to get fixed.
    Mr. Cummings. And how many guns are we talking about in 
total? Do you have any idea? In other words, I am trying to 
figure out how big the universe might be. It sounds like we 
don't have a handle on when it--because we don't have accurate 
information but ----
    Mr. Horowitz. I didn't put down the exact number of guns. 
I'd imagine Mr. Kane ----
    Mr. Cummings. Would you know, Mr. Kane?
    Mr. Horowitz.--can. Do you know how many guns we are 
talking about?
    Mr. Kane. I do not know the number of guns, but they are 
not accounted for under the automated systems that Mr. Horowitz 
is referring to it this point.
    Mr. Cummings. Right.
    Mr. Horowitz. The inventories that I'm referring to, the 
firearms are tracked in a separate manner, which is why when we 
check those, we found no lost firearms because they actually 
did track the firearms. Our concern are what are called 
expendables, which is ammunition ----
    Mr. Cummings. Yes.
    Mr. Horowitz.--in other words, things that you use up in 
some way, chemical agents, stun munitions, those kind of things 
that once you use them, they're no longer in inventory. That 
was the problem BOP had. They weren't keeping control and 
understanding what they were using versus what might have been 
stolen, for example.
    Mr. Cummings. So, Mr. Kane, you had told the chairman you 
would be getting those 11 items done. When do you plan to do 
that, how soon? Because one thing I have learned about being 
around here for 20 years that folks just put stuff off and put 
stuff off and wait for another Congress, and things never get 
done.
    Mr. Kane. Thank you ----
    Mr. Cummings. So I would like to have some date.
    Mr. Kane. Okay. Thank you, Mr. Cummings. The safety and 
security of the public, the staff, and the institutions and the 
inmates is our highest priority, and we're working very 
actively ----
    Mr. Cummings. You are not answering my question, sir. Just 
answer ----
    Mr. Kane. We're working with the OIG on the new automated 
----
    Mr. Cummings. Can you give me some deadlines? Give me 6 
months. Tell me something.
    Mr. Kane. We expect to be able to test that new system in 
early winter.
    Mr. Cummings. Early winter?
    Mr. Kane. Yes, sir.
    Mr. Cummings. All right. Because I'm going to ask the 
chairman to call you back.
    Mr. Kane. That's fine.
    Mr. Cummings. Because I realize that is the only way we get 
things done sometimes.
    Mr. Kane. That's fine, sir.
    Mr. Cummings. Inspector General Horowitz, do you agree that 
the inventory controls alone will not prevent Federal firearms 
from being used by criminals?
    Mr. Horowitz. That's correct.
    Mr. Cummings. And why do you say that?
    Mr. Horowitz. Tracking the weapon is obviously different 
from preventing their improper use.
    Mr. Cummings. Well, you know, I support the President's 
efforts to explore gun safety technology or smart guns that 
would require fingerprint verification. Mr. Chairman, in April 
the Department of Justice Homeland Security issued a report 
outlining the administration strategy, and I ask that that 
report be entered into the record.
    Mr. Palmer. Without objection ----
    Mr. Cummings. Thank you ----
    Mr. Palmer.--so ordered.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    That report states that this technology could ``prevent use 
of an officer's weapon if it fell into the wrong hands and it 
might discourage theft of such weapons in the first place. 
These developments could in turn shrink the supply of stolen 
firearms to the secondary black market, curtailing a dangerous 
source of weapons for criminals.'' I would venture to guess 
that many of the guns used to murder people in my district to 
harm people are stolen guns, not from Federal agencies but 
stolen.
    Mr. Orner, given all of the potential of the smart 
technology, do you agree that it is at least worth exploring as 
one of the many solutions that could help prevent criminals 
from doing harm with stolen Federal firearms?
    Mr. Orner. I certainly think that that's an issue worthy of 
evaluation. I'm reliant on the marketplace, and those types of 
technologies to my knowledge aren't in the marketplace today. 
But as it's evaluated as it's become available, we will of 
course take a very close look at that, and we will determine in 
which of our operations such technologies will be efficient and 
effective and will improve the safety of the weapon.
    Mr. Cummings. I see my time is up. I yield back.
    Mr. Palmer. The gentleman yields.
    The chair recognizes Mr. Hice of Georgia for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Mr. Orner, let me just continue on here. Obviously, we are 
talking hundreds of weapons that have been stolen or somehow 
lost over the last several years. Do you have any idea how many 
of those weapons were used in crimes?
    Mr. Orner. The only crime I'm aware of is the one that the 
chairman noted. I do not know that, but we will get back to 
you. We can go back to the National Criminal Investigation 
database.
    Mr. Hice. Have any of the firearms been recovered?
    Mr. Orner. Yes. We regularly recover firearms.
    Mr. Hice. How many?
    Mr. Orner. Well, for example, in 2015 we reported 72 lost 
firearms. We would now adjust that number to 56 to account for 
those recoveries.
    Mr. Hice. All right. So there are still 56. I mean, this is 
unacceptable. There have been people killed in America with 
weapons that were stolen or lost, whatever the case may be, by 
Federal agents. And the Customs and Border Patrol seems 
particularly egregious with this. Why does CBP stand out?
    Mr. Orner. I think it has something to do with the nature 
of their operations. You have agents in the field sometimes 
running through vigorous environments.
    Mr. Hice. That is not an excuse to lose a weapon.
    Mr. Orner. There's no excuse for losing a weapon, 
Congressman.
    Mr. Hice. So my question is why are they the worst at 
losing their weapons?
    Mr. Orner. The size of the organization and the nature of 
their mission would be the reasons. There is still no excuse 
for losing a weapon.
    Mr. Hice. Well, your answer frankly makes no sense. What in 
the world does failure to properly secure a weapon mean? If it 
is as you state inexcusable, there is no excuse to be losing a 
weapon, and yet the CBP continues to lose weapons. They are the 
worst at it. Why can they not secure a weapon? What does 
failure to properly secure a weapon mean?
    Mr. Orner. We have very detailed procedures on ----
    Mr. Hice. That is not my question.
    Mr. Orner. It means you did not follow established 
procedures. For example ----
    Mr. Hice. So why is following directions so difficult? 
Where are we dropping the ball here?
    Mr. Orner. Overwhelmingly, our agents in the field do 
follow direction.
    Mr. Hice. Well, overwhelmingly, a sizable number of them 
evidently don't follow direction. And we have got to get to the 
bottom of this. It is inexcusable for Americans to have to fear 
being injured or killed by weapons that were issued to 
government agents who are incapable of properly handling their 
weapon. Would you agree with that?
    Mr. Orner. I would agree that any case of improperly 
handling a weapon is unacceptable. Seventy-five percent of our 
weapons losses were in fact thefts.
    Mr. Hice. All right. Well, I mean, that just poses more--
that doesn't help at all. I mean, how are guns continually 
being stolen? It just goes on and on here just trying to wrap 
my mind around this.
    Mr. Kane, let me jump over to you. What is a cause of the 
numerous inventory errors that OIG has pointed out?
    Mr. Kane. It's the outdated systems that we are now 
replacing, and when they were constructed, they were built to 
serve the local institution, and now we're moving toward a 
national database that will allow national centralized auditing 
of regular reports, et cetera, in addition to digital logs of 
----
    Mr. Hice. So is that going to help you determine what is in 
inventory error versus what kind of weapon or ammunition has 
been stolen or missing?
    Mr. Kane. Other audits that are done in this part of the 
ongoing work of the Bureau of Prisons will check to see if 
those kinds of errors are occurring. And ----
    Mr. Hice. So is that a yes or a no? Are we going to be able 
to determine the difference between an inventory error and that 
which is stolen or missing? It is not a difficult question. 
That is what inventory is all about. We have got to know where 
these ammunitions and weapons are going.
    I see that my time is expired, Mr. Chairman. I thank you. 
But we have got to get to the bottom of this. Americans should 
never fear the irresponsibility of our government agents who 
are incapable of keeping properly a weapon issued by our 
government.
    And with that, Chairman, I yield back. Thank you.
    Mr. Palmer. The gentleman's time is expired.
    The chair recognizes the gentlewoman from New Jersey, Mrs. 
Watson Coleman, for 5 minutes.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Although I doubt that anyone would disagree with making 
sure that Federal firearms are secure, this hearing seems to me 
to be a bit of a red herring. In the midst of the conversations 
sparked by last week's Democratic sit-in, in the midst of calls 
to make commonsense changes to our nation's gun laws, in the 
midst of public agreement on the two things that Democrats 
asked for a vote on--no-fly, no buy, and closing loopholes in 
background checks--we are having a hearing about guns. But it 
is about a tiny fraction of guns and certainly not the guns 
causing the majority of the problems.
    Even the title of today's hearing is misleading because 
while there are a variety of inadequate safeguards when it 
comes to firearms in our nation, Federal weapons seem pretty 
low on the list. It may be more worthwhile, for example, to 
bring NIH in to examine the impact of the congressionally 
imposed and the NRA-endorsed ban on studying the impact of gun 
violence.
    I think our time would also be much better served with 
witnesses from the Justice Department or the FBI to talk about 
bullet stockpiles and how to track large ammunition purchases 
so that we can prevent mass shootings and make daily gun 
violence a little less frequent. I know for a fact that I would 
love to ask about my own Stop Online Ammunitions Sales Act.
    In Connecticut alone, there are more than 51,000 registered 
assault rifles. One hundred and seventy-nine of them are owned 
by one individual. And according to one 2014 estimate, nearly 
one million assault weapons have gone unregistered in New York. 
So I would love to hear from witnesses who could tell me more 
about what these owners typically do with these weapons and 
maybe something more about how we can ensure that they remain 
out of the wrong hands.
    All of that is to say that I hope that this hearing isn't 
the end of our examination of inadequate safeguards, Mr. 
Chairman, because if it is, then I believe that it is our work 
that is inadequate.
    Thank you. I yield back.
    Mr. Palmer. Will the gentlewoman yield? Will the ----
    Mrs. Watson Coleman. I yielded back.
    Mr. Mulvaney. I thank the chairman. I yield to the 
gentleman from North Carolina, Mr. Meadows.
    Mr. Meadows. I thank the gentleman from South Carolina. And 
so let me follow up with my esteemed colleague opposite. I can 
assure her that this hearing is part of a series of hearings 
that we have had dating back long before some of the tragic 
events. She will recall obviously we have had GSA and a number 
of others that were in, and I have a strong commitment to work 
in a bipartisan way to continue not only the work that we have 
started many, many months ago but to continue to work on an 
inventory and control process that would address that. And so I 
just wanted to let the gentlewoman know of not only our 
previous efforts but our continuing efforts to address that.
    So let me go ahead and go to some of the issues ----
    Mrs. Watson Coleman. Will the gentleman yield?
    Mr. Meadows. Sure, without a doubt.
    Mrs. Watson Coleman. Thank you. I certainly appreciate 
that, and I look forward to our working in a bipartisan way on 
this issue. At the end of the day I think our actions speak 
louder than words, and that as we approach these hearings in 
the future and we bring people before us, that I would like 
very much to get at the issue that is plaguing our communities 
both in mass killings and in individual lives that are lost 
daily, particularly in the urban communities and the poorer 
communities. The issue of ----
    Mr. Meadows. Reclaiming my time. I appreciate your 
comments.
    Mrs. Watson Coleman. Thank you.
    Mr. Meadows. All I am saying is is that this is a long-
standing process of which this committee has taken seriously 
long before some of the most recent political events that have 
sparked some of this controversy.
    And so let me come back to some of the issues at hand that 
seem to be systemic. And gentlemen, you are here this morning 
because of your inventory and your systems being deplorable. 
There is no other word to describe them other than to suggest 
that the lack of controls at your agencies need not only great 
work but systemic work to make sure that we can keep track of 
them. Would you all agree with that?
    Mr. Kane. [Nonverbal response.]
    Mr. Meadows. I see, Mr. Kane, you are shaking your head 
yes. Mr. Orner, all of you would agree that you have systemic 
problems that need of major, major work. So let me ask you a 
little bit further because one of my concerns, the gentlewoman 
mentioned about the rounds of ammunition, and I honestly get 
questioned more from DHS with regards to rounds of ammunition 
and why you purchased so much only having, I guess, officially 
according to open the books--and Dr. Coburn, who I hold in very 
high regard, he said that there has only been 881 times that 
DHS has actually fired their weapon in terms of official 
capacity, but yet you have purchased 1.7 billion rounds of 
ammunition. Why such a huge inventory of ammunition?
    Mr. Orner. We use a strategic sourcing on the purchasing of 
ammunition to get the best price. The numbers you quote ----
    Mr. Meadows. But ----
    Mr. Orner.--are contract ceilings, not the amount that is 
actually purchased.
    Mr. Meadows. But if we go to the amount that you actually 
contract, I have looked into this dating back 3 or 4 years. So 
let me shift to something else. Can you tell me why DHS would 
have acquired 4,700 bayonets?
    Mr. Orner. I am not familiar with the issue of bayonets, 
and I will ----
    Mr. Meadows. Well, it ----
    Mr. Orner.--get back to you on that. I suspect it's 
ceremonial units, but I'm going to have to get back to you.
    Mr. Meadows. Forty-seven hundred bayonets ----
    Mr. Orner. That may also be ----
    Mr. Meadows.--in ceremonial units for DHS?
    Mr. Orner. That may also be a contract ceiling, but I will 
get back with you with the data on that. And on the issue of in 
ammunition, we do issue an annual comprehensive report on the 
purchase ----
    Mr. Meadows. Yes, I am very familiar with it. I am very 
familiar with it. So let me ask you in terms of coding because 
I'm going to come to you, Mr. Kane, very quickly, on coding as 
well. Can you tell me why you would code something to show that 
it was a procurement type for firearms code that in there--it 
was for the ``cable dude.''
    Mr. Orner. For the what?
    Mr. Meadows. Cable dude.
    Mr. Orner. Did we code it that way?
    Mr. Meadows. Yes. Would you say that that is something that 
should be used as a firearm code?
    Mr. Orner. Absolutely not and it ----
    Mr. Meadows. So you are starting to get my point.
    So, Mr. Kane, let me come to you because I am just as 
concerned that you have inmate clothing at $67,000 worth that 
is coded as body armor. Why would that be?
    Mr. Kane. I have no idea, sir.
    Mr. Meadows. Or feminine hygiene products worth $15,000 
coded as body armor? Any reason why the Bureau of Prisons would 
do that?
    Mr. Kane. No, none that I know of it.
    Mr. Meadows. We also have that you had $113,000 worth of 
food that you coded as chemical weapons and equipment. Does 
that make sense?
    Mr. Kane. It does not.
    Mr. Meadows. Okay. I think we are all getting my point I 
believe at this point. If you can't code it right, the best new 
system in the world isn't going to fix the problem. And so what 
we need is real accountability, real coding, and a real 
inventory system that honestly you could probably put on 
QuickBooks today and do better than what we are doing.
    And with that I yield back, Mr. Chairman.
    Mr. Palmer. The gentleman yields.
    The chair now recognizes the gentleman from Pennsylvania, 
Mr. Cartwright, for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman.
    And thanks to you, Inspector General Horowitz, for being 
here today ----
    Mr. Horowitz. Thank you.
    Mr. Cartwright.--and for your good work bird-dogging the 
Bureau of Prisons and watching how they handle their firearms. 
This is work that reminds us how important it is to make sure 
our Federal agencies effectively, efficiently, and safely 
manage their firearms. The reason we do this, of course, is 
that when guns get into the wrong hands, they can have 
devastating effects on our communities. The tragic massacre in 
Orlando that is not yet a month old acutely reminds us of this, 
and my heart breaks for those families.
    Inspector General Horowitz, given your investigative 
expertise, when looking for solutions to problems, why is it 
important to consider all contributing factors?
    Mr. Horowitz. Well, when we look at issues, one of the 
things that's important to us when we issue a report is to be 
prepared to answer questions about whatever the potential 
factor could be using the inventory and the issues here today. 
For example ----
    Mr. Cartwright. Sure. To get to the whole truth, and I 
totally ----
    Mr. Horowitz. Try and make sure we get the whole story.
    Mr. Cartwright.--agree with that. For example, we have to 
make sure our background check systems have the appropriate 
information in place so we can actually make sure that people 
who are prohibited from having guns actually do not have guns. 
That is why I support the administration's efforts in this 
area. Attorney General Lynch has written the States on how 
important it is that they share relevant information so that 
the background check system can be accurate. The FBI is 
overhauling the system to make it more efficient in order to 
improve processing times. Even the Social Security 
Administration is working to make sure appropriate information 
is shared with background checks system about people prohibited 
from getting guns for mental health reasons.
    Again, what are we doing here in Congress? Well, we are 
trying to change the subject. Just a few weeks ago, House 
Republican leadership blocked Democratic efforts to bring 
legislation to the Floor that would prevent suspected 
terrorists from buying guns. Somebody needs to pinch me. Why 
would you prevent a bill like that from coming to the Floor? 
They wouldn't even allow a vote.
    Even now, even now after Americans across this country have 
protested, Speaker Ryan won't agree to hold a vote on 
meaningful gun violence measures. Instead, Speaker Ryan will 
allow a vote only on a proposal that was written by the 
National Rifle Association and rejected by the Senate, and even 
this now, even this deficient measure is being pulled back. It 
is unacceptable. There is still no action on legislation that 
would help improve our background checks, which is critically 
needed to keep guns out of the wrong hands.
    Mr. Orner, if we can stop the flow of guns to criminals, 
would this help support DHS's efforts to keep our nation safe?
    Mr. Orner. As a general statement, the obvious answer is 
yes.
    Mr. Cartwright. It is obvious, and I thank you for that. We 
have smart reform-minded solutions right at our fingertips that 
could help keep guns out of the wrong hands. I urge my 
colleagues on the other side of the aisle to give these 
solutions a chance and at least bring them up for a vote.
    With that, I yield back, Mr. Chairman.
    Mr. Palmer. The gentleman yields.
    I would just like to point out and remind the committee 
that this topic, this hearing topic again back in February with 
a hearing that we had with the GSA regarding Federal agencies' 
handling of firearms. This committee sent letters to 34 
agencies for information on their firearms inventories and how 
they are handling them, and I will also say that this 
discussion will continue.
    The chair now recognizes the gentleman from Arizona, Mr. 
Gosar, for 5 minutes.
    Mr. Gosar. Thank you, Mr. Chairman.
    Inspector General Horowitz, good seeing you again.
    Mr. Horowitz. Thank you.
    Mr. Gosar. In March 2016 you released a report showing you 
audited three BOP armories in my home State of Arizona: FCI 
Phoenix, FCI Tucson, and USP Tucson. Did your audit find that 
firearms and munitions were secure in those three locations?
    Mr. Horowitz. We found that they had kept track of the 
firearms, but we still found the inventory control issues that 
we found more broadly.
    Mr. Gosar. Any other findings that you feel are important 
in regards to those three facilities?
    Mr. Horowitz. Well, broadly speaking, what we found at the 
institutions generally was we couldn't reconcile the monthly 
inventories with the actual inventories when we were doing it. 
So we didn't have confidence in understanding how that 
discrepancy--those discrepancies occurred, whether it meant a 
poor tracking system or whether it meant something worse like 
people stealing or taking improperly various munitions.
    Mr. Gosar. Got you. Now, you testified in fiscal year 2014 
the Bureau of Prisons recovered 2,410 weapons in BOP 
institutions, a 5 percent increase from the fiscal year 2012. 
That is an astronomical number in that many weapons shouldn't 
even be making their way into these secure prisons. It begs to 
highlight this. Can you quickly reiterate some of the important 
recommendations your office made to prevent contraband and 
firearms from making their way into the BOP facilities?
    Mr. Horowitz. Absolutely, Congressman. This is a very 
important issue, and primarily, they involve tracking the 
contraband that's found because BOP doesn't know in a big-
picture way how it might be getting--this contraband might be 
getting into institutions. Staff search is a very important 
part of this. There is not an effective staff search policy at 
the BOP. We talked about that 13 years ago in 2003.
    Sadly, as the incident I recounted involving our own agent 
who lost his life at a BOP institution when a corrupt 
correctional officer had a weapon in the prison that he should 
not have had in there, used that firearm to shoot and kill 
Buddy Sentner, Agent Buddy Sentner, and shot but survived 
fortunately BOP staff member. There needs to be an effective 
staff search policy.
    There needs to be better camera systems. As I mentioned 
earlier in response to Congressman Lynch's question, there 
needs to be tracking of what is occurring in the institution. 
BOP needs to do a better job on their new technologies they are 
using to their credit, but what we found when we went out to 
institutions was that the correctional officers and staff 
didn't understand fully how to use the tracking technology and 
the new technologies were being used, also how to use them 
consistent with the Prison Rape Elimination Act, which requires 
various steps to be taken before x-raying various people going 
into institutions. So we had a number of findings that we think 
BOP needs to take to address these issues.
    Mr. Gosar. Mr. Kane, were you paying particular attention 
to that?
    Mr. Kane. Absolutely, we are, Mr. Congressman, and it we --
--
    Mr. Gosar. So some of the things that were brought up 13 
years ago, why are we still even talking about them today?
    Mr. Kane. We have actually made changes in policy, as Mr. 
Horowitz referenced earlier, in 2013, and another update 
concurred with by our union this spring in 2016. But the OIG 
identified additional potential improvements. We agree, and we 
are going to actively pursue them.
    Mr. Gosar. So, Mr. Ellis, were you paying attention?
    Mr. Ellis. Yes, sir.
    Mr. Gosar. Because it seems like all I get and this 
committee gets from you is doubletalk in regards to 
inventories, numbers. You know, we get handbook, pieces copied 
out of handbooks. So I want to ask you again, were you paying 
attention?
    Mr. Ellis. Yes, I might respond to your question, too, is 
one, the BLM does an inventory of their firearms every 6 
months. We last did one--let's see, was it last January--and 
recently completed one here it would be at the end of June.
    In regards to the question about the information that you 
get back, what I--I might say that the committee ----
    Mr. Gosar. Okay. Let me interrupt you. I have got a limited 
amount of time. Do you know how many firearms have been lost 
since 2005 from the BLM?
    Mr. Ellis. I do.
    Mr. Gosar. How many?
    Mr. Ellis. We've had eight firearms lost. One was lost in 
the mail, seven were stolen. Of these ----
    Mr. Gosar. And how many were ultimately recovered?
    Mr. Ellis. Six were recovered.
    Mr. Gosar. Do you know how many of these lost firearms are 
actually connected to any criminal activity?
    Mr. Ellis. One that we're aware of, one.
    Mr. Gosar. Well, I am running out of time here, Mr. 
Chairman, but thank you very much. I yield back.
    Mr. Palmer. The gentleman yields.
    The chair recognizes the gentlewoman from New York, Mrs. 
Maloney, for 5 minutes.
    Mrs. Maloney. Thank you for having this hearing. It is a 
truly serious, serious issue. Some of my colleagues and I just 
came from a meeting with 91 people, the average number of 
people who die each day, each day from gunshot wounds in our 
great country, and they were all people who had lost their 
loved ones and been shot themselves. I mean, it was 
heartbreaking, absolutely heartbreaking.
    And on June 21 in the city that I represent, New York, 
there was a van coming into the city that had a broken window 
so they stopped the van and they opened up the van and it was 
filled with machine guns, grenades, and a whole cache of 
weapons coming in to the city of New York.
    So really I want to thank you for looking at the Federal 
firearms inventories. I think it is important. But I would say 
it is a small drop in the bucket given the amount of guns that 
are in our country. Believe me, if guns made people safer, we 
would be the safest nation on earth. And one report showed that 
since 1968 our country has lost more men and women to gun 
violence than we have lost in all of the combined wars that we 
have experienced, including the great war for our independence 
that we just celebrated last weekend.
    So I want to talk about this, and I am glad you are looking 
at it, but I think it should be looked at in a broader way. The 
Department of Homeland Security is the largest law enforcement 
agency in the country, and of the 21 agents responding to it, 
the agencies responding to the Department of Homeland Security, 
they reported the highest number of lost, stolen, or missing 
weapons was an average of 69 per year. Now, that is important, 
but there may have been 69 weapons in that van that they 
stopped going into New York. I mean, it is a huge problem. In 
contrast, over 230,000 guns are stolen each year during 
burglaries from private citizens.
    So I would like to ask Mr. Horowitz, given these numbers 
and given your investigative experience searching for solutions 
to problems, would you agree that non-Federal firearms also 
affect our communities?
    Mr. Horowitz. We've certainly had situations where non-
Federal firearms have affected communities. The example I gave 
earlier where our agent was shot trying to arrest the corrupt 
correctional officer was shot using an unauthorized firearm.
    Mrs. Maloney. Well, actually, some of your agents testified 
before this Congress several years ago and asked for us to make 
trafficking in guns illegal, make it a felony. It is not even a 
felony now. How dumb can we be? And to increase the penalties 
on straw purchases. And they said, look, we want stricter gun 
enforcement laws to protect ourselves. This one agent testified 
that they don't even bother to go after gun traffickers because 
there is really no penalty. It is not even a felony.
    So, you know, straw purchasing is buying guns for people 
who are prohibited from purchasing them. And in 2000 the Bureau 
of Alcohol, Tobacco, and Firearms examined its gun trafficking 
investigations and reported that straw purchasing from Federal 
licensed dealers was involved in nearly half of the ATF 
investigations studied and connected to over 25,000 firearms.
    So I would like to have this report entered into the 
record, which I think is called ``Following the Gun: Enforcing 
Federal Laws against Firearms Traffickers.'' Could I have 
unanimous consent to place it in the record?
    Mr. Palmer. Without objection, so ordered.
    Mrs. Maloney. And this point out that straw purchasers and 
trafficking is a huge problem, and the chairman and I--not the 
chairman but the ranking member--we hope the chairman will join 
us--but the ranking member and a number of us on this committee 
introduced legislation making trafficking in guns a felony and 
increasing the penalty for straw purchasers. This would make 
our agents safer. This would make our people safer.
    And I just am really imploring my colleagues to not only 
follow up on this important report that has been done but to 
also respond by supporting this bill. Practically every law 
enforcement group in the country endorsed it because it said it 
would make their agents safer.
    And we are in an epidemic. We are losing too many people. I 
had to leave a speak-out of mothers and fathers who had lost 
their children dying in their arms from gunshot wounds because 
it was too horrible to listen to. And it is preventable if we 
could just crack down not only on the number lost from the 
agencies but the number stolen from homes, the number that are 
given to mentally ill, deranged terrorists, people ----
    Mr. Palmer. The gentlewoman's time has expired.
    Mrs. Maloney.--and let's just join hands and work together 
to get the guns out off the streets, no fire, no buy, and 
comprehensive background checks. It is common sense.
    Thank you. I yield back.
    Mr. Palmer. The gentlewoman yields.
    The chair now recognizes the gentleman from Oklahoma, Mr. 
Russell.
    Mr. Russell. Thank you, Mr. Chairman. And, gentlemen, thank 
you for being here today.
    What training do agents receive on properly securing their 
firearms? Whoever would like to go first. Mr. Kane?
    Mr. Kane. Our officers are issued firearms in very limited 
circumstances, but they also do use them during training. 
They're issued from our armories and returned to our armories. 
They are tracked in a system, as Mr. Horowitz indicated, that 
is effective in maintaining accurate inventories of firearms. 
We have not lost or had any stolen since 2005, the time the 
research suggested by or requested by the committee.
    But our training begins in basic training. We have annual 
training. We do training in disturbance-control sorts of 
events, et cetera, and all of those types of training include 
that sort of focus in instruction.
    Mr. Russell. And I realize that the Bureau of Prisons has 
arms room issuance of firearms, you know, for their duties, so 
we would expect a stricter control.
    Mr. Ellis, what type of training do the BLM agents receive, 
seeing as how they have their firearms with them 24 hours a 
day?
    Mr. Ellis. That's--yes. Congressman, our law enforcement 
officers are rangers, uniformed officers, and they're special 
agents. It all starts with their--what's called--well, their 
basic training, FLETC, 16 weeks of training for the Federal Law 
Enforcement Training Center. When they qualify on the job every 
6 months on these weapons, you know, they receive, you know, 
additional training.
    And also, we have what we call our general orders, and our 
general orders cover the requirements for securing firearms, 
say in vehicles, in your residence if you have them in your 
residence. That's all covered in our general orders ----
    Mr. Russell. Okay.
    Mr. Ellis.--and they're all educated on these general 
orders.
    Mr. Russell. And, Mr. Orner, in the various sub-agencies of 
DHS, I am assuming that there is some type of requirements to 
maintain possession of your firearm?
    Mr. Orner. Absolutely, Congressman. Anybody who is issued a 
firearm in the Department of Homeland Security must first go 
through training. There is, of course, requalification training 
on a regular basis. The content of the training that officers 
are required to take varies depending on the mission of the 
component of which they are a part. So if you'd like, I can 
give you a ----
    Mr. Russell. Well, I think it is important ----
    Mr. Orner.--comprehensive list of those.
    Mr. Russell.--to notice that because it appears we have 
some training deficiencies with retention of firearms, with 
leaving firearms in a vehicle instead of on your person or not 
having them as a part of your duties. Maybe they would be left 
unattended. That is a serious breach of any trained officer, 
and so it goes to really another question. And to you, Mr. 
Orner, okay, we had 69 firearms lost for 204,000 in a 
particular year. What happened to the 69 agents that lost 
possession of their firearm?
    Mr. Orner. In every case the supervisor is notified of the 
loss within 2 hours ----
    Mr. Russell. Okay. We got the loss. What discipline actions 
happen to the individuals? Are they commended? Are they 
disciplined? Are they fined? Are they removed? Surely there 
must be some penalty for such a grievous violation.
    Mr. Orner. The nature of the discipline depends on the 
circumstances of the loss. They're--each one of those losses is 
investigated by the operational chain of command who takes the 
appropriate action. I don't have a personal involvement. It 
wouldn't be appropriate ----
    Mr. Russell. Well, we would like to see that. And of the 
69, I personally would like to know how many of those officers 
were disciplined that it was due to neglect. We understand if 
somebody was overpowered or they were, you know, in the course 
of their duties or something of that nature.
    I will say this: 24-hours-a-day duty or having possession 
of firearms every day is no excuse for their negligent care. 
Having served in battle in several different excursions around 
the globe, I never once under my command had any of my soldiers 
lose a firearm. I had some destroyed by combat actions, never 
had a soldier lose a single one. And I would suggest that at 
the root cause of much of this with firearms loss is proper 
care, proper training, and it also has to be proper discipline. 
If there are no ramifications, then it doesn't even seem to be 
something serious.
    And, Mr. Chairman, with just a slight indulgence here, 
newsflash, it is a felony to make a straw purchase on a 
firearm. As the only firearms manufacturer in Congress, I can 
assure you for my Democratic colleagues that you cannot make a 
straw purchase without it being a felony. That just absolutely 
does not happen. And to this 30,000 number that we see every 
year of people that lose their lives to firearm homicide, let's 
not forget that 63 percent of those are suicide.
    Let's have the debate, but let's use real facts, let's use 
real discussions, and let's quit hampering this hearing on 
things that need to be addressed in a separate way. And I would 
welcome and champion anyone you want to put up ----
    Mr. Palmer. The gentleman's time has expired.
    Mr. Russell.--on that issue. And with that, Mr. Chairman, I 
yield back. Thank you.
    Mr. Palmer. The gentleman's time has expired.
    The chair now recognizes the gentlewoman from the Virgin 
Islands, Ms. Plaskett.
    Ms. Plaskett. Thank you, Mr. Chairman. And thank you, Mr. 
Russell. So I guess you are in favor of us having Floor debates 
on these issues, and that is great hearing that coming from 
your side. We would like to have those sooner rather than 
later.
    Mr. Russell. Will the gentlelady yield for a question?
    Ms. Plaskett. It wasn't a question. I was just making a 
statement so ----
    Mr. Russell. Well, would you just yield for a simple 
question?
    Ms. Plaskett. Sure.
    Mr. Russell. Just one question. Does that include showing 
proper respect to the esteemed chamber that we obey by the 
rules that we dictate for this wonderful republic of ours and 
that we conduct ourselves in a similar manner where that type 
of discussion could occur? Would you agree to that?
    Ms. Plaskett. I would agree to that, and I have agreed to 
that, and I believe the Democrats have done that when this body 
also has respect for itself by bringing those things to debate 
and to the Floor and not disrespecting the American people by 
manipulating the rules so that that doesn't happen.
    Mr. Horowitz, the committee appreciates the work that went 
into the audit over the course of the 3 years in the seven 
facilities, and the committee itself is in the middle of its 
own investigation of inventory practices. About 33 agencies 
received a letter from Chairman Chaffetz requesting the 
documents, and thus far, 22 have responded. Many of these 
agencies have either no losses or recovered all lost weapons, 
and that is really great news.
    From the responses we have received, it appears that the 
vast majority of firearms losses result from theft from a 
Federal agent, including vehicle and home break-ins. What are 
the best practices, Mr. Horowitz, for reduction of incidence of 
theft?
    Mr. Horowitz. I think there are several steps that agencies 
can take. First of all, having proper policies and training in 
place is critical. We've found in looking at the BOP, for 
example, they had several policies in some places that were, we 
thought, best practices, but that was institution by 
institution. It was not at a broader level.
    We think, in addition, making sure that the proper 
equipment is provided to agents so, for example, if they're 
going to be in their car, government car, they should have an 
appropriate storage locker if they're going to have a place to 
leave their firearm. They should not be leaving it obviously 
unsecure in a car. Those are some of the things that just off 
the top of my head that I think ----
    Ms. Plaskett. And are there penalties in place for 
individuals or Federal agents who do not follow those 
procedures, and have they been put on those individuals that 
break those rules?
    Mr. Horowitz. There are disciplinary policies. We would 
oversee the ones at the FBI, DEA, ATF, the Bureau of Prisons, 
and the Marshals, which are DOJ components, and I can certainly 
get back to you on what the most recent numbers look like from 
those agencies in terms of discipline for any lost firearms.
    Ms. Plaskett. Okay, great. And the inventories, you do 
believe that all inventories should submit to occasional 
audits, correct?
    Mr. Horowitz. Absolutely.
    Ms. Plaskett. And does that happen? How does that happen?
    Mr. Horowitz. At the BOP where we did this review it 
doesn't happen regularly in the sense that there's really no 
historical audit that can be done because of the way the 
current tracking system is kept. A real audit would look at the 
change in inventory over time. That can't be done in the way 
the current system is fashioned but hopefully will be in the 
revised system.
    Ms. Plaskett. And when will that revision go into effect?
    Mr. Kane. We are planning to begin testing the new system 
in early winter 2017.
    Ms. Plaskett. And why not sooner?
    Mr. Kane. It's a complicated system to put together. We're 
working directly with OIG staff to satisfy all requirements. 
And we--we're working very hard already to get it done.
    Ms. Plaskett. So next spring you will be able to give us 
some outcomes of what that inventory, when you begin testing 
it, might have looked like?
    Mr. Kane. Yes, we expect we will.
    Ms. Plaskett. Okay. Thank you. One of the other things the 
ATF says that there are currently--just a moment--sir, the 
number of agencies that have not reported their numbers, so we 
got from others, were you not able to conduct an extensive 
review for every Federal agency? How many agencies can you 
review did you say, Mr. Horowitz?
    Mr. Horowitz. We would have oversight over the DOJ, the 
Justice Department agencies ----
    Ms. Plaskett. Right.
    Mr. Horowitz.--so the law enforcement components there 
being FBI, DEA, ATF, Marshals ----
    Ms. Plaskett. Who do you think have the most law 
enforcement or have the largest number of Federal guns or 
ammunitions or arsenal?
    Mr. Horowitz. I believe the Department of Homeland Security 
has the largest total number.
    Ms. Plaskett. Mr. Orner, would you agree with that?
    Mr. Orner. Yes, I would agree with that.
    Ms. Plaskett. And ----
    Mr. Orner. We do have the largest number. We have 204,000 
weapons.
    Ms. Plaskett. And of that, how many have you had losses or 
thefts?
    Mr. Orner. Losses or thefts over the last 4 years averages 
69 of the 204,000.
    Ms. Plaskett. Okay. Thank you. I have run out of time. 
Thank you very much, Mr. Chairman.
    Mr. Palmer. The gentlewoman yields back.
    The chair recognizes the gentleman from South Carolina, Mr. 
Gowdy, for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman. I had some questions 
and observations for the inspector general for the Judicial 
Department because I am a big fan of his and I always enjoy 
when he comes before Congress. And then my friend from Oklahoma 
said something that caused me to kind of divert my thinking a 
little bit, and I want to, first of all, tell my friend from 
Oklahoma thank you for your service to our country well before 
you ever came to Congress.
    You mentioned straw purchasers, and of course a straw 
purchaser is someone who purchases a firearm on behalf of 
someone who has been prohibited, and that kind of got me 
thinking, well, I wonder how long the list of prohibited 
persons is. And I was wondering from my friend from Oklahoma, 
it is already, I believe, against the law for persons who have 
been convicted of felonies to purchase firearms and ammunition, 
is that right?
    Mr. Russell. Yes, it is illegal, and it is also illegal to 
make straw purchases. It comes with a 10-year minimum prison 
sentence.
    Mr. Gowdy. You know what I found striking, there is 
actually a pretty long list of people who can't purchase 
firearms, any kind of firearm or ammunition: those who used 
controlled substances, those who have been court-martialed, 
those that are not here legally, those that have overstayed 
visas, those that are subject to a restraining order in a 
domestic violence case. They already can't possess firearms, 
any kind of firearm. So that got me wondering, to my friend 
from Oklahoma. I wonder how this administration is doing 
enforcing the current laws that are on the books for all of 
those categories of prohibited persons. Does my friend know 
whether prosecutions are up or down over the last 8 years?
    Mr. Russell. Actually, the prosecutions are down, sadly to 
say. The administration has not supported the ``Don't Lie for 
the Other Guy'' campaign, which the Bureau of Alcohol, Tobacco, 
and Firearms and the FBI both support, as well as all 
responsible gun manufacturers and Federal firearms licensees. 
This is a real problem, and the administration has not 
supported the efforts. It would go a long way if we saw a 
different policy.
    Mr. Gowdy. And, you know, I find that stunning. I guess I 
find it stunning at a logical level why you would ask for more 
tools when you are not using the tools that you currently have. 
And I would encourage all of my friends to look at the 
prosecution levels for 18 USC 922(g) crimes, firearms 
violations, look at the level of prosecution for the last 8 
years under this administration, and you will see that gun 
prosecutions have gone down.
    So I am trying to figure out how another law that you are 
not going to enforce is going to make us safer. And to my 
friend from Oklahoma, I am struggling to follow the logic.
    Mr. Russell. Well, I would agree. In fact, with regard to 
the no-fly list, you know, they say if you are a terrorist, you 
shouldn't be able to buy a firearm. Newsflash: You can't. Four 
hundred thousand are on the terror watch list. Over 97 percent 
of those are foreigners. They are prohibited from purchasing 
firearms. You have to be a U.S. citizen or permanent U.S. 
resident and 90 days in residence at your current address to 
even have a firearm transferred. Otherwise, it is denied.
    So there is a lot of bad information. Of the 3 percent that 
remains, a fraction of that ends up being on the no-fly list, 
and of that, it will trigger what they call a Federal 
prohibiter likely going to be denied or delayed at a minimum 
and the FBI is notified for further investigation. This is 
tantamount to like saying, well, we need to stop murder. Why 
don't they make a law to stop murder? Newsflash: We have. 
People still are sinful and commit crimes.
    Mr. Gowdy. Well, I am pretty sure we have laws against 
narcotics trafficking, too, and I have not noticed that going 
away in part because of a porous border but for other reasons 
as well.
    And in conclusion, my friend from Oklahoma, I notice the 
Governor of Virginia has begun a campaign to restore the rights 
of persons who have been convicted. It is a restoration of 
rights. I guess if that is what Virginia wants to do, that is 
what Virginia can do, but I would hasten to add, those persons 
have already been afforded due process. They were convicted. 
They were either convicted by a jury of their peers or they 
stood in front of a judge and admitted that there was proof 
beyond a reasonable doubt on every element of the crime. So 
they have already been afforded due process, and yet the 
Governor of Virginia wants to restore their rights. And some of 
those same folks are now arguing to take away rights of folks 
who have had no due process whatsoever. Can the gentleman from 
Oklahoma help me understand that?
    Mr. Russell. It is hard to fathom. I would think in cases 
where you have legitimate pardons by a Governor and evidence 
has been brought to bear, then obviously we would have 
constitutional rights restored. Apart from that, I think that 
that is going down the wrong path.
    It is also worth noting in our gun violence that we see in 
actual murders with firearms, they have decreased 9 percent 
since 2010, they have decreased 10 percent since 2005, 20 
percent since 1995. Last year, the last statistical data year 
that we had, of the 8,124 murders committed with firearms, only 
248 were done by rifles of any type. That was nearly half what 
it was for blunt force objects or clubs or things of that 
nature. Again, we have a lot of data that is being thrown out 
as inaccurate, but in the true communist textbook fashion, say 
it often enough and repeat it often enough, it becomes 
believed, and what is alive becomes truth.
    Mr. Gowdy. Well, I thank my friend from Oklahoma, and I 
thank the chairman for his indulgence, and we would yield back.
    Mr. Palmer. The gentleman yields.
    The chair now recognizes Mr. Connolly from Virginia for 5 
minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    Surely my colleague did not mean to suggest that those of 
us who have a different opinion on guns are communists.
    Mr. Russell. Of course not.
    Mr. Connolly. Thank you. Mr. Horowitz, how many firearms 
are lost or unaccounted for every year in Federal possession?
    Mr. Horowitz. Congressman, I don't have the total number 
across all Federal agencies with me. I can certainly get that 
----
    Mr. Connolly. Well ----
    Mr. Horowitz.--to you.
    Mr. Connolly.--is it in the millions?
    Mr. Horowitz. I don't even have an estimate.
    Mr. Connolly. Does anyone on the panel know? Well, surely 
it is dwarfed by the number of firearms lost in private hands, 
is it not? Anybody? Well, there are 230,000 private firearms 
lost or stolen every year. Does that sound right to anybody on 
the panel or ----
    Mr. Horowitz. I have no data on that, Congressman.
    Mr. Connolly. Well, Mr. Horowitz, the point of this hearing 
by the majority, references to communism notwithstanding, is to 
try to prove that the Federal Government is reckless, and even 
by implication, talking about repetition of untruths, that the 
Federal Government might itself be culpable frankly for gun 
violence and gun deaths in America. And therefore, it is 
relevant to the topic to understand what percentage total 
firearms possessed by the Federal Government, and of that 
total, how many are lost or unaccounted for relative to the 
number of guns in private hands throughout the country that are 
lost or stolen every year. And it is rather self-evident that 
the latter dwarfs the former. And being prepared for that 
argument might have been helpful as you all prepared to come 
here today on a subject that has been in the headlines.
    I just came from the steps of the Capitol to have a 
colleague talk about a point of view on guns as a lie that gets 
repeated like the communists did. I would welcome bringing some 
of my colleagues who apparently hold that view to the steps of 
the Capitol where we heard a mother describe her estranged 
husband, drunk and abusive, came to the home, shot her multiple 
times and killed her 10-year-old daughter, who died in her arms 
as her mother held her trying to understand and still 
recovering from the trauma, of course, of that incident. He got 
a gun online with no background check, no approval, not from 
the Federal Government, easy to possess by getting online.
    Here in the Congress, we had a sit-in last week not for the 
sake of making a political point but for the sake of trying to 
give witness to tens of thousands of victims of gun violence in 
America, the overwhelming majority of whom were felled by guns 
in private hands, some legal, some not, some stolen, some 
purchased. And this is an epidemic in the United States. We are 
losing over 30,000 people a year to gun violence not because of 
the Federal Government losing weapons.
    So in that sense I don't know whether this hearing is doing 
us a service to the greater debate, but I certainly want to 
assert as vigorously as I can that this is a point of view that 
is growing and that is not based on falsehoods or distortions. 
It is based on the underlying fact that every 2 years we lose 
more Americans to gun violence in this country than we did in 
the entirety of the Vietnam War.
    I yield back.
    Mr. Palmer. The gentleman yields.
    I now recognize myself for questions, and would just like 
to point out that among those who were lost to gun violence, 
according to the FBI statistics, 11,900 and something were 
homicides and less than 8,200 were related to gun violence.
    Mr. Ellis, in July of 2015 an illegal foreign national 
five-time deportee from Mexico stole a Bureau of Land 
Management ranger's gun and shot and murdered 31-year-old Kate 
Steinle who died in her father's arms. How did the shooter 
manage to steal that firearm?
    Mr. Ellis. Well, first of all, Mr. Chairman, very tragic, 
very tragic incident, and ----
    Mr. Palmer. Just for the sake of time just answer the 
question.
    Mr. Ellis. My understanding is that the BLM law enforcement 
officer had that weapon in his personal vehicle that he was 
driving to Helena, Montana.
    Mr. Palmer. Was the vehicle locked or did they break into 
it?
    Mr. Ellis. It's my understanding the vehicle was locked and 
it was broken into.
    Mr. Palmer. Okay. Are the BLM rangers required to undergo 
training for firearm management?
    Mr. Ellis. They are.
    Mr. Palmer. Okay. Let me point out that they are required 
to attend special firearm training held by the Federal Law 
Enforcement Training Center, and after the training is 
complete, the rangers complete a second field training and 
evaluation program where they learn the job and several duty 
locations across the States. Annual and quarterly training is 
also required for firearms, defensive tactics, physical 
fitness, and other job skills. In other words, the ranger is 
responsible for his assigned firearm, isn't that true?
    Mr. Ellis. Rangers are responsible ----
    Mr. Palmer. And other equipment while off duty. Department 
of Interior departmental manual part 446, chapter 10, requires 
that each law enforcement officer is responsible for ensuring 
the security of his or her assigned firearm and other defensive 
equipment while on or off duty. And further, BLM's own manual, 
handbook, 1112-2 on safety and health for field operations, 
topic 17.6, requires that all firearms, when not in active use, 
shall be stored in a secure place out of sight under lock and 
key. Firearms will be unloaded prior to storage.
    Considering what happened and the tragic nature of events 
after the theft of the firearm, was that ranger disciplined?
    Mr. Ellis. Mr. Chairman, the ranger was not disciplined and 
----
    Mr. Palmer. Why not? That is in direct violation of your 
handbook.
    Mr. Ellis. After this incident, the BLM investigated why. 
Myself and many of us wanted to know how did this happen. At 
the time we did not have a policy in place for POVs. That's 
personally operated vehicles. We now have a policy in place 
that ----
    Mr. Palmer. So this policy just--you are telling me that 
this manual policy that I just read you was put in place after 
Kate Steinle was murdered?
    Mr. Ellis. No, there's policy--there's a general order 15 
that covers government vehicles ----
    Mr. Palmer. No, I asked you ----
    Mr. Ellis.--this was not covered ----
    Mr. Palmer. I am asking you, now answer the question. BLM's 
manual handbook 1112-2 on safety and health for field 
operations, topic 17.6, was that in place before Kate Steinle 
was murdered?
    Mr. Ellis. All ----
    Mr. Palmer. The answer is yes. I mean, you know your own 
policy, don't you?
    Mr. Ellis. Mr. Chairman, the policy that was in place for 
personal vehicles essentially required the locking of the 
vehicle. The individual had the vehicle locked. It was broken 
into. The firearm was not secured to a hard point in the 
vehicle ----
    Mr. Palmer. Was it loaded?
    Mr. Ellis. The policy ----
    Mr. Palmer. Was the firearm loaded?
    Mr. Ellis. Now--the policy now requires that.
    Mr. Palmer. I am asking you was the firearm loaded?
    Mr. Ellis. I do not know the answer to that.
    Mr. Palmer. Let me ask you this. You say that standard 
firearms issue for each officer is a semiautomatic pistol for 
primary duty carry, a semiautomatic pistol as a backup weapon, 
a shotgun, and a semiautomatic rifle. Would you describe that 
rifle?
    Mr. Ellis. It's a semiautomatic rifle. I don't--I cannot 
tell you ----
    Mr. Palmer. What caliber? What caliber?
    Mr. Ellis. It's my understanding it's similar to AR-15.
    Mr. Palmer. Okay. So it is an AR-15, but the Federal 
inventory does not list that as an assault weapon. It lists it, 
properly so, as a semiautomatic rifle, is that correct?
    Mr. Ellis. Well, it is a semiautomatic rifle, so ----
    Mr. Palmer. That is right.
    Mr. Ellis.--my understanding, we have no automatic rifles, 
no automatic pistols, no automatic firearms in the BLM 
inventory.
    Mr. Palmer. I thank you for making that distinction between 
what is or is not an assault weapon. I yield back.
    I now recognize the gentleman from California, Mr. 
DeSaulnier, for 5 minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman. I want to commend, 
at the same time find it difficult in giving the benefit of the 
doubt to reconcile what the majority would like to do here in 
terms of pursuing best practices on storage and inventory 
control on Federal public safety agencies and our inability to 
have an honest non-emotive if possible evidence-based debate 
about how we can deal with gun safety and violence in this 
country.
    I find it ironic that the history of the NRA started as a 
gun safety organization where perhaps 50, 60 years ago we could 
have that kind of discussion where the IG and the National 
Laboratories could investigate what is the best way to drop gun 
violence and increase gun safety, whether it is proper funding 
for prosecutors or laws that are effective or oversight. I for 
one would enjoy being part of that discussion and just remind 
and submit for the record if possible a letter that over 100 of 
us signed to the Republican leadership to continue or re-
instigate the funding for Center for Disease Control funding 
around gun violence. And would ask that that be entered into 
the record.
    Mr. DeSaulnier. I want to quote from an extensive article 
that was in the San Jose Mercury News being from the bay area 
as part of a bay area news group investigation, and it started 
after the Kate Steinle incidence, which I assume, Mr. Ellis, 
was the one exception to lost guns that you mentioned. At a 
previous questioning you said that there were eight lost guns, 
and that was the one that unfortunately ended up in a tragedy, 
as you said, is that correct, sir?
    Mr. Ellis. Yes.
    Mr. DeSaulnier. So quoting from the San Jose Mercury's 
story, a year after a bullet from a Federal agent's stolen gun 
killed 32-year-old Kate Steinle, who I will mention was once a 
constituent of mine, on a San Francisco pier, this news 
organization surveyed more than 240 local, State, and Federal 
enforcement agencies and discovered an alarming disregard, 
disregard for the way many officers from police chiefs to 
cadets to FBI agents safeguard their weapons.
    Their guns have been stolen from behind car seats, glove 
boxes, swiped from gym bags, dresser drawers, and under bed. 
They have been left on tailgates, car roofs, and even atop a 
toilet paper dispenser in a car dealership's bathroom. One 
officer forgot a high-powered assault rifle in the trunk of a 
taxi.
    In all, since 2010 at least 944 guns have disappeared from 
police agencies, State, Federal, and local, across California, 
an average of one almost every other day, and fewer than 20 
percent have been recovered. ``You just can't leave a gun alone 
in a vehicle,'' said retired FBI agent Jim Wedick. ``You just 
can't do it. It has to be in a compartment or in chains an inch 
thick wrapped around a lead box because God forbid someone gets 
hurt.''
    The extensive investigation goes on to talk about the lack 
of proper inventory control in Federal agencies, also in State 
and local. So I have started to work my office on a bill to 
address this. In talking to police chiefs in many of your 
departments and to rank-and-file, there are some issues that 
consistently come up, including--and sort of this goes to the 
earlier discussion about laws that aren't enforced--but the 
disincentive or the incentive for best practices.
    So in the quote, the quote was ``disregard for the way many 
officers''--now, we are all humans. If there isn't a proper 
disincentive, Mr. Horowitz, which my colleague, Mr. Russell, 
brought up in his comments, people need to be disciplined 
sometimes. If what we have got anecdotally is agents from your 
agencies know that there are colleagues who don't really follow 
best practices.
    So, Mr. Horowitz, what do we do to discipline people? And, 
Mr. Ellis, as a follow-up, what did you do in this instance or 
at any instance to actually discipline the individual agents?
    Mr. Horowitz. Congressman, I couldn't agree with you more. 
There has to be consistent discipline. It's--there's got to be 
follow-through. One of the frustrations we've had as an IG 
office over the years is the failure to follow through on 
discipline by the agencies when we find issues. We've issued 
many reports, as you know, on that issue. And so I think there 
has to be two things. I think the inspectors general need to 
continue to call out failures to follow rules by the agencies 
that we oversee, and Congress needs to ask the hard questions 
when that--when those failures occur.
    Mr. DeSaulnier. Mr. Ellis? And I will say this came up in 
the previous investigations about DEA officers overseas, that 
they didn't think there was going to be any punishment, and in 
fact, a lot of them actually got promoted and all of them 
continued to serve in Federal service.
    Mr. Ellis, briefly?
    Mr. Ellis. Congressman, when a firearm is lost or stolen, 
we do an investigation. If that ----
    Mr. DeSaulnier. No, the question was, was the individual 
disciplined?
    Mr. Ellis. If the investigation shows that a policy was 
violated, we issue a disciplinary action.
    Mr. DeSaulnier. I will take that that he was not 
disciplined.
    Mr. Ellis. This individual in this particular instance was 
not disciplined because we did not find where he violated a 
policy. We did have an instance where a law enforcement officer 
was disciplined when a firearm was stolen from his residence 
that was not following the policy. Actually, the law 
enforcement officer resigned so the disciplinary action was 
never enacted because the law enforcement officer left the 
agency.
    Mr. DeSaulnier. Thank you, Mr. Chairman.
    Mr. Palmer. Thank you, Mr. DeSaulnier.
    I want to follow up on your line of questioning there. For 
what purpose was the BLM ranger in San Francisco?
    Mr. Ellis. The BLM ranger was in San Francisco, as I 
indicated earlier, was on his way to an assignment in Helena, 
Montana.
    Mr. Palmer. Okay. So it was official or unofficial for him 
to be in San Francisco?
    Mr. Ellis. It was official business. You know, from his 
duty station to Helena, Montana, that was between the two.
    Mr. Palmer. Let me ask you this. When you assign agents to 
a particular locality, whether they are assigned to the 
locality or in this case passing through on their way to 
another assignment, are they required to comply with State 
laws?
    Mr. Ellis. Well, sure, they--Federal and State law, yes, 
when they ----
    Mr. Palmer. So ----
    Mr. Ellis.--when they ----
    Mr. Palmer. Mr. Ellis, are you aware that under 
California's penal code 25610 a gun transported in a car must 
be kept in the trunk or within a locked container?
    Mr. Ellis. I am not.
    Mr. Palmer. You are not aware of that. So do you know 
whether or not the BLM ranger had the gun in the trunk in a 
locked container?
    Mr. Ellis. It's my understanding that the firearm was under 
the seat on the driver's side, the firearm that was stolen.
    Mr. Palmer. So the answer is he was not in compliance with 
California State law? That would be--the answer is yes.
    Mr. Ellis. No, what I would say is it's my understanding 
the weapon was in a pack under the seat on the driver's side.
    Mr. Palmer. So the answer is no, he was not complying with 
California State law. Didn't BLM also break California law? 
Would that be your understanding, and would they not be subject 
to penalties under California State law?
    Mr. Ellis. Mr. Chairman, I'm not familiar with the 
California State law, I'm not an attorney, but what I can tell 
you ----
    Mr. Palmer. Is it not your responsibility, though, to make 
sure that your rangers at least have a working knowledge of the 
State laws in which they are working or passing through?
    Mr. Ellis. Well, I would expect that they would. I think 
that, you know, it would be difficult for them to understand 
the laws and the rules in every community, you know, that 
they're passing through.
    Mr. Palmer. I ----
    Mr. Ellis. I would hope that they would have an 
understanding ----
    Mr. Palmer. I don't expect them to be experts, but you have 
a responsibility to make sure that your agents comply with 
State and Federal law. You said that at the outset when I first 
brought this up, but you clearly didn't.
    I would like to recognize the ranking member, Mr. Cummings 
from Maryland.
    Mr. Cummings. All I can say is we can do better, Mr. Kane 
and all of us. I mean, we can do better. It seems like it is 
kind of hard, wouldn't you agree, Mr. Horowitz, if we can't 
keep up with the bullets, to keep track? Do you think it is 
that difficult to get this done? I mean, what ----
    Mr. Horowitz. It's not. It's a standard inventory control 
system that needs to be built to track the munitions.
    Mr. Cummings. Well, we are going to follow up on this. And, 
Mr. Horowitz, I forgot to tell you I want to thank you for all 
your work on the IG bill. You are a real trooper ----
    Mr. Horowitz. Thank you.
    Mr. Cummings.--and we depend so much on what you all do. 
And again, I want to thank you. We think it is good, and the 
bill goes in the right direction and hopefully it helps you.
    Thank you all very much.
    Mr. Palmer. I would like to associate myself with Mr. 
Gowdy's remarks in regard to Mr. Horowitz. I appreciate the 
great work that you have done. I also appreciate each of the 
witnesses. I want to thank you for your testimony today and for 
the members of the committee that participated.
    If there is no further business, this hearing is adjourned.
    [Whereupon, at 12:08 p.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
